C@OCKLE

2311 Douglas Street L 1 Brief
Omaha, Nebraska 68102-1214 € 8 a ta “on

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850 No. 19-357

CITY OF CHICAGO, ILLINOIS,
Petitioner,

v.
ROBBIN L. FULTON, et al.,
Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of March, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF THE NATIONAL ASSOCIATION OF CHAPTER

THIRTEEN TRUSTEES AS AMICUS CURIAE SUPPORTING RESPONDENTS i
required to be served have been served by Priority Mail. Packages were plainly addres

SEE ATTACHED

To be filed for:

HENRY E. HILDEBRAND, III
Chapter 13 Standing Trustee
Counsel of Record

JAMES M. DAVIS
Staff Attorney

P.O. Box 340019.

Nashville, TN 37203-0019

615-244-1101

hank@ch13bna.com

Counsel for Amicus Curiae

Subscribed and sworn to before me this 10th day of March, 2020. .
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September §, 2023

GENERAL WOTARY-State of Hebraska Konse.
A RENEE J. Goss . I AY

Notary Public

 

in the above entitled case. All parties
sed to the following:

OQvdau Ke Gh

Affiant

39401
SERVICE LIST

Craig Goldblatt

Counsel of Record
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006
craig.goldblatt@wilmerhale.com
202-663-6000
Counsel for the Petitioner City of Chicago

Eugene R. Wedoff
Counsel of Record
144 N. Elmwood Avenue
Oak Park, IL 60302
erwedoff@me.com
312-285-5849
Counsel for Respondents Robbin L. Fulton, George Peake, and Timothy Shannon

Noel J. Francisco
Solicitor General

Counsel of Record
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOVJ.gov
202-514-2217
Counsel for the United States
